<html>
<title> - STATUTORY AUTHORITIES OF THE DIRECTOR OF NATIONAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 110-837]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-837
 
     STATUTORY AUTHORITIES OF THE DIRECTOR OF NATIONAL INTELLIGENCE 

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2008

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-099 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 










                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
               CHRISTOPHER BOND, Missouri, Vice Chairman
DIANNE FEINSTEIN, California         JOHN WARNER, Virginia
RON WYDEN, Oregon                    CHUCK HAGEL, Nebraska
EVAN BAYH, Indiana                   SAXBY CHAMBLISS, Georgia
BARBARA A. MIKULSKI, Maryland        ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 RICHARD BURR, North Carolina
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                   Andrew W. Johnson, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk










                                CONTENTS

                              ----------                              

                           FEBRUARY 14, 2008

                           OPENING STATEMENTS

Hon. John D. Rockefeller IV, Chairman, a U.S. Senator from West 
  Virginia.......................................................     1
Hon. Christopher S. Bond, Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     3

                                WITNESS

Hon. J. Michael McConnell, Director of National Intelligence.....     5

                       SUBMISSIONS FOR THE RECORD

Hon. Russell D. Feingold, a U.S. Senator from Wisconsin, prepared 
  statement......................................................    28
Prepared Statement of Hon. J. Michael McConnell, Director of 
  National Intelligence..........................................    29
Turner, Kathleen, Director of Legislative Affairs, Office of the 
  Director of National Intelligence, letters transmitting 
  responses to questions from Committee Members, July 3, 2008 and 
  July 24, 2008..................................................    41


     STATUTORY AUTHORITIES OF THE DIRECTOR OF NATIONAL INTELLIGENCE

                              ----------                              

                      THURSDAY, FEBRUARY 14, 2008

                              ----------                              

                               U.S. Senate,
                  Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:42 p.m., in 
room SH-216, Hart Senate Office Building, the Honorable Jay 
Rockefeller, Chairman of the Committee, presiding.
    Committee Members Present: Senators Rockefeller, Feinstein, 
Wyden, Feingold, Whitehouse, Bond, Warner, and Snowe.

 OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, CHAIRMAN, A 
                U.S. SENATOR FROM WEST VIRGINIA

    Chairman Rockefeller. My apologies to the Director and to 
my colleagues for being late. Our witness today appears to be 
the Director of National Intelligence, Admiral Mike McConnell. 
And seated behind the Director, a number of his key staff, and 
we've made space for a least three of them in case anybody 
wants to leap forward to give answers, make a point during the 
hearing.
    Director McConnell.  To save the Director. [Laughter.]
    Chairman Rockefeller.  I would say that would be at your 
discretion.
    Congress created the position of Director of National 
Intelligence, or the DNI, because most of us felt that it was 
no longer practical to expect the head of CIA to manage the 
entire U.S. intelligence community; in fact, it was self-
evident. It was a very glum period, in fact, in terms of 
intelligence organization and it seems like a long time ago but 
it really wasn't.
    Additionally, we believe that the leader of the 
intelligence community needs to have more authorities than 
those possessed by the Director of Central Intelligence in 
order to effectively manage and direct resources against the 
intelligence priorities, and we don't know that we put 
everything out right, or did it right, which is the point of 
this today.
    And so the bill passed in 2004. It was a product of months 
of heated debate. Many aspects of it are a product of 
compromise rather than consensus. There were several points 
about which the House and the Senate could not agree. So rather 
than let negotiations collapse, certain issues were left 
ambiguous or unresolved, which is often not helpful.
    Some of us worry that Congress may not have given the DNI 
enough authority to match his enormous responsibilities. I 
count myself in that group. This is not to say that the 
authorities assigned to the position under the reform law do 
not give you a great deal of power; they do. The DNI determines 
the budget of the intelligence community; he has the authority 
to transfer money and positions from one intelligence agency to 
another. But then that sentence needs to be explored. How 
easily can that happen; what road blocks are thrown up.
    Additionally, the DNI directly operates many critical 
elements of the intelligence community such as the National 
Counterterrorism Center, the National Counterproliferation 
Center, the National Intelligence Council, which puts out the 
NIEs.
    The Senate Intelligence Committee is responsible for 
conducting oversight of the intelligence community, and we take 
that responsibility very seriously, and I think that the 
Director and others in the intelligence community are coming to 
understand that, that we're very oriented toward oversight, and 
we feel that this has not been the case in the past. And the 
Vice Chairman and I have very strong ideas about that.
    But this means that we have an obligation to monitor your 
activities in a constructive sense and evaluate whether you 
have all of the appropriate tools and authorities that you need 
in order to succeed. With 3 years of experience under our belt, 
I think it's time for the committee to assess whether the 
reform legislation has fulfilled its promise, or whether it has 
not, and we need to make changes or whatever.
    For example, one issue before the Committee is the proper 
relationship of the DNI to the various elements of the 
intelligence community. Most of these elements are located in 
different cabinet departments, and it is the DNI's job to make 
sure that they are all working together in a unified effort, 
including those agencies such as NSA and NRO, which reside 
within the Department of Defense.
    The Committee must also consider whether the budget and the 
personnel authorities that Congress has given the DNI are in 
fact sufficient. The Intelligence Reform Act gives the DNI 
significant power to move resources from one intelligence 
agency to another, but if bureaucratic roadblocks cause every 
transfer to take 6 months, then maybe we haven't done that at 
all, and at least we need to discuss that.
    In sum, the DNI exists because Congress and the American 
people wanted the intelligence community to function as a 
unified whole, and because we wanted somebody to be accountable 
for the intelligence community's collective effectiveness, both 
its successes and its failures. I firmly believe that Admiral 
Mike McConnell, the current DNI, is the absolutely right person 
for the job. So if his ability to lead and to manage the 
intelligence community is somehow being hampered or compromised 
or undermined in ways that may not be visible to this 
Committee, we need to know about it and consider options for 
eliminating those roadblocks, and we want to.
    If, on the other hand, you are able to do your job 
efficiently and effectively, then that's an encouraging sign 
that the authorities may be aligned properly. So, again, that's 
the point of the hearing. So before I turn to the Director for 
his testimony, which I've read, I recognize Chairman Bond for 
any opening statement that he wishes to make.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chairman Bond.  Mr. Chairman, thank you very much. I'm 
not going to pass up this opportunity to share a few views. 
Admiral McConnell, we thank you once again for appearing before 
this Committee. You've been spending so much time up on the 
Hill, it looks like you're camping out, but there are many 
major issues that we have discussed with you, as we will again 
at this hearing.
    Today we meet again in one of our occasional public forums 
to discuss the authorities you in your office need to do your 
job to protect our Nation. At the outset, I highly commend your 
leadership in attempting to bring the community together. Your 
efforts to reform the FISA, Foreign Intelligence Surveillance 
Act, to increase information sharing in collection, coordinate 
intelligence collection, strengthen analysis, and reform human 
capital management are particularly laudable.
    I also, once again, publicly commend the tremendous work of 
the individual members of the intelligence community--military 
troops, civilians, contractors, all of them working together 
keep us safe. We're grateful for them, indebted to them, and 
very proud of the excellent work they do. Sound intelligence 
work, however, is not easy; it's always difficult. It requires 
exceptional skill, dedication, and sometimes exceptional 
courage in the face of danger.
    Your service is greatly appreciated, and we see the results 
of your efforts every day.
    This hearing is a rare chance to take stock of intelligence 
reform as it has emerged from the Intelligence Reform and 
Terrorism Protection Act of 2004, and decide where to go from 
here. We asked when you first came into office to take a year 
to formulate for us legislative recommendations so that we can 
institutionalize what is best working now in the intelligence 
community, and that we can improve upon intelligence reform, 
which, as I have mentioned to you many times, I believe was at 
best half-baked. I voted against IRTPA because I thought it 
gave you all of the responsibility but not enough authority to 
go with the responsibility.
    I've also stated numerous times and repeat how impressed we 
all are with the working relationship that you have with 
Secretary Gates, Under Secretary Clapper, Directors Hayden, 
Mueller, Maples and others.
    But I well remember not so long ago when the relationships 
in those offices were not as synergistic as today, and we 
charged you with providing to us your thoughts on legislative 
recommendations to institutionalize what we can in the 
relationships you've developed informally.
    Now, I'm well aware that relationships cannot be 
institutionalized, and that with good people it doesn't matter 
what you institutionalize; they find a way to get the job done, 
and vice versa. But it certainly facilities cooperation to make 
sure that the institutional structure is synergistic and 
functional as it can be. And your recommendations today will be 
very important.
    While I've been a staunch supporter of your office, I 
mentioned I didn't vote for the Act due to the major 
compromises contained in the bill. The Act denied your office 
the full authorities required truly to direct the intelligence 
community, not just coordinate its activities, as did your 
predecessor and the community management staff within the CIA. 
Without exceptionally strong firm direction, the intelligence 
community cannot act as one body, and we cannot achieve true 
unity of purpose required to combat terror and prevent the use 
of weapons of mass destruction against us and our allies.
    There's an historical precedent to intelligence reform that 
can be drawn in our experience with defense reform. The 
landmark National Security Act of 1947 that created the 
Department of Defense, the Air Force, the Joint Chiefs of 
Staff, and the National Security Council nonetheless contain 
serious organizational birth defects. These defects were 
evident in the inter-service rivalries it suffered in Vietnam, 
the failed hostage rescue attempt in Iran, and in poorly 
coordinated operations in Grenada. It took congressional 
leadership in the form of Goldwater-Nichols, of 1986, 40 years 
after the National Security Act, to create that unity of 
purpose that enabled the well-orchestrated effective joint 
operations of our forces over the last two decades.
    Mr. Director, I wish we had 40 years to get intelligence 
reform right, but the harsh reality is we do not. The threat we 
face today is shadowy, unpredictable, and immediate, putting 
the lives and livelihoods of our citizens on the line here and 
abroad. Timely, actionable, accurate intelligence is the key to 
prevailing against that threat. And quality intelligence, in 
turn, requires that all elements of the community act together 
as one.
    Strong DNI central direction and authority is required for 
efficient management of the substantial resources of the IC. 
Without it, each agency could go its own way, creating its own 
data centers, its own networks, its own financial and personnel 
systems, on and on, resulting in gross inefficiencies, making 
collaboration and information-sharing even more difficult.
    As the next administration decides how to grapple with 
large near-term budget deficits and even larger ones as baby 
boomers retire, your budget may well come under greater strain. 
Your own program management plan, which we recently received, 
acknowledges this strain and concludes it will require tough 
program tradeoffs and achievements of greater efficiencies if 
the community is to deliver the intelligence capabilities that 
the Nation needs.
    Mr. Director, this is your chance to tell us what 
additional authorities you and you office need to be effective, 
both within the 500 days of your current tenure and well beyond 
that 500 days when I hope you may be able to and wish to 
continue to serve. I'm particularly interested in what 
authorities are needed in the realms of tasking and operational 
direction, personnel accountability, and acquisition. And I 
know this expectation puts you in a difficult spot, 
particularly in public, because you would not want to appear in 
any way to be in dissonance with the administration and the 
Secretary of Defense.
    But you're a tough guy in a tough job and we know you're up 
to the assignment. If we can't get candid answers from you, 
then we're all in trouble. I trust you will deliver us your 
candid position today, and if it would help to move into a 
closed session at a later time to discuss sensitive aspects of 
the relationship in closed session so that you may speak more 
freely, I would certainly be amenable to that and I would urge 
the Chairman and the full committee to give you that 
opportunity.
    But now, we look forward to your public testimony. We thank 
you for coming and look forward to your testimony and to your 
responses to our questions. We place great stock in your views, 
as the Chairman has indicated.
    Chairman Rockefeller.  Mr. Director?

STATEMENT OF ADMIRAL J. MICHAEL McCONNELL, USN (RET.), DIRECTOR 
                    OF NATIONAL INTELLIGENCE

    Director McConnell.  Mr. Chairman, Vice Chairman Bond, 
thank you for the opportunity to appear today. Members of the 
Committee, I am pleased to be here.
    Before I start, I want to thank you, Chairman Rockefeller 
and Ranking Member Bond and members of the Committee and the 
staff sitting behind you. And the reason for that thanks is all 
the effort over many months to get the FISA legislation passed 
through the Senate with an overwhelming majority. It passed 2 
days ago with bipartisan support, and I think it is 
commendable. I believe, under this Committee's leadership, we 
now have a bill that is essential for our community to do its 
job in protecting the country. The Senate bill needs to be 
enacted now into law. If it is not, whether the Protect America 
Act is extended or expires, either way, it will do grave damage 
to our capabilities to protect the Nation if we don't have your 
bill passed.
    Why I might make that statement? The simple fact of the 
matter is, we must rely on the private sector to be effective. 
Without liability protection for the private sector, they are 
less willing to help if the cost for that help is huge 
lawsuits. As you know from your months of review, liability 
protection does not exist in the current law--retroactive 
liability protection does not exist in current law. It would 
not exist in an extension and certainly would not exist if the 
law were allowed to expire. Therefore, we must get the new bill 
passed immediately if we are to maintain our capabilities to 
stop terrorist attacks against the Nation.
    Turning to today's topic, as you've noted, I'm joined by an 
array of experts. And you're going to ask some technical 
questions, I'm sure, and I won't hesitate to call them to the 
table to help me in answering.
    We in the intelligence community have a solemn mandate and 
responsibility to provide relevant and objective analysis to 
customers across the government from law enforcement officials, 
to warfighters, to the President, and of course to the 
Congress. Our mission is to create decision advantage for our 
leadership. By decision advantage, we mean the ability to 
prevent strategic surprise, provide warning, understand 
emerging threats, track and prevent known threats, while 
adapting to a changing world. In these activities in some 
circumstances, as is known to this Committee, we also have an 
operational role to confront or help reduce foreign threats to 
the Nation.
    This is not, as some have surmised, a passive community 
sitting in an office merely conducting analysis. We are in the 
field, as you noted, conducting aggressive collection 
operations, actively engaged to create that decision advantage 
that I mentioned earlier. There are a variety of views, as you 
also mentioned, about how to structure this community. There 
are four basic options.
    The first is overseer, probably the weakest form. Second 
would be a coordinator; third, an integrator; and fourth, a 
director, someone who actually directs all of the community's 
intelligence activities. I currently have the title of 
Director, but the authorities created in statute and executive 
order put me more in the middle of that range of options--
coordinator and integrator, rather than director with directive 
authority.
    This is because, of the 16 agencies that make up this 
community, 15 of them work for a cabinet secretary in his or 
her department. For decades, the community was led in a 
decentralized fashion with various elements of the intelligence 
community being directed largely by their department heads, 
with limited direction from the Director of Central 
Intelligence. Until the creation of the DNI, the Director of 
Central Intelligence doubled as the Director of CIA, as you 
mentioned, and was more of an overseer, the weakest form, for 
the dozen or so intelligence agencies that existed at that 
time.
    It was apparent that managing the day-to-day activities of 
the CIA while effectively overseeing a community composed of 
organizations serving other cabinet-level departments was a 
significant challenge for any single person. With the passage 
of the reform act that you've mentioned in December 2004, the 
DNI inherited a divided community that required greater 
coordination and integration to be effective in meeting the new 
threats.
    Over 40 serious studies have been conducted since the 1947 
National Security Act that recommended that the intelligence 
community integrate its efforts under a single, empowered 
leader. But it took two events--the trauma of September 11th 
and the failure of intelligence on Iraq's weapons of mass 
destruction National Intelligence Estimate--to spur dramatic 
reform of the community.
    Today, we are building on that 50-year legacy. Our mandate 
is to lead this community of 16 agencies and components, of 
which the DNI has direct reporting responsibility for only one, 
the CIA. As mentioned, the remaining components are operating 
under independent department heads. Our current structure 
charts a middle path between a department of Intelligence with 
line control over all elements and a confederated model, which 
provides resources but not day-to-day direction of the 
subordinate elements. This was the design of the 2004 Act that 
created this office.
    Often said, the intelligence community needs legislation 
like the Goldwater-Nichols Act of the eighties for DOD. I would 
note Goldwater-Nichols worked and is working well today. But it 
was for a single department with all decision authority flowing 
to the Secretary of Defense. We do not have a department of 
Intelligence.
    Our current model empowers an intelligence community 
leader, the DNI, who manages strategic planning, policy, 
budgets, but does not have direct operational control over 
elements of the community. The DNI does not have direct 
authority over the personnel in all of the 16 agencies in the 
community.
    As part of our 500-day plan, we have focused the DNI's role 
as the integrator of the community. We seek to create 
efficiencies and improved effectiveness in shared services like 
security clearances, information-sharing, information 
technology, and communications, but still promote an 
environment where the elements of the community serve their 
departmental responsibilities. This integration model of 
governance across the departments is still being defined 
because, quite frankly, we are in new territory for U.S. 
intelligence, something that has never been tried before, 
balanced with the need to have strong departmental intelligence 
elements in each department.
    This middle ground creates healthy tension--tension that 
obliges us to take on big issues within the community while at 
the same time doing so with the support and collaboration of 
not only the 16 community members but in cooperation with the 
cabinet department heads. The legislation of 2004 directed 
specific responsibilities and tasks for the DNI and the office 
of the DNI. We believe a limited corporate headquarters is 
required to carry out our strategic tasks, such as the 
following: analytic and collection leadership; integration and 
prioritization; community-wide science and technology; budget 
development and oversight; information technology integration; 
information-sharing enhancement; human resources policy and 
direction; equal opportunity and diversity direction and 
management; and civil liberties and privacy protection 
leadership and advocacy.
    In addition, the office I'm responsible for operates the 
following mission management-related centers and staff 
elements: the National Intelligence Council, which produces our 
National Intelligence Estimates; the National Counterterrorism 
Center; the National Counterproliferation Center; the National 
Counterintelligence Executive; the Office of Analytic Mission 
Management; and the National Intelligence Coordination Center 
to coordinate collection activities across the Federal 
Government. This organizational structure enables the office to 
implement the coordination and integration required by the 2004 
Act and ensures that the community's collective efforts are 
effective and efficient to some degree.
    This arrangement has seen significant successes in the past 
3 years. It's made an impact on how we do our business and our 
contribution to the Nation's security. Let me provide a few 
examples. We have significantly enhanced intelligence 
collaboration across the community for collection, analysis, 
and dissemination; improved analytic tradecraft by setting more 
rigorous standards, promoting alternative analysis and enabling 
greater analytic collaboration; resourced the National 
Counterterrorism Center to ensure integration of all levels of 
information relevant to counterterrorism as well as to promote 
all-source intelligence collection collaboration and tasking 
deconfliction; established an executive committee.
    The Executive Committee is composed of the heads of the 
various agencies and the principal customers that receive our 
information. The executive committee is designed to take on the 
tough issues to help the DNI with decisionmaking support when 
we have to make hard decisions. We focused exclusively on 
guiding the intelligence community at large, allowing the CIA 
Director to give his agency the full attention that it 
requires.
    And of course, we worked with the Congress to update the 
things like the FISA legislation; played a key role in the 
interagency effort to enhance security for the Federal IT 
networks, and hopefully for the IT networks of the Nation; 
established a joint-duty program, which requires our future 
leaders to have joint-duty for a promotion; greatly enhanced 
classified information-sharing among our foreign partners. We 
launched security clearance transformation. The purpose of that 
is to save time and money and make us more efficient. And we 
integrated and coordinated the intelligence community-wide 
budget to ensure that we are making hard choices now to prepare 
the community for the future.
    I have just described where we were and where we are. I'll 
take just a couple of moments to comment on where we want to 
go. To further intelligence transformation, we have launched a 
reform initiative aligned to our longer-term vision, which I 
will profile briefly here. We must develop a workforce that 
knows, understands, and trusts one another, and regularly 
shares information to better develop intelligence products. 
Initiatives such as the joint-duty effort are critical to 
transforming that culture. We're also developing uniform 
compensation policies across the community appropriate to a 
highly performing workforce for the 21st century. This will 
also serve as an incentive to bring our community closer 
together.
    We want to create a culture of intelligence analysts who 
understand that they have a responsibility to provide the 
needed information to the right customer in time to be useful. 
Such a culture puts great pressure on our analysts. They must 
know their customers better, they must understand how all the 
collection systems work better, and they must meet their 
obligations to protect sources and methods.
    We need a seamless flow of information to be effective. We 
cannot continue to maintain multiple, non-interoperable 
networks within the community or operate with archaic 
information-sharing regimes. Initiatives such as our single 
information environment and modernizing our intelligence-
sharing policies and procedures will help us accomplish that 
goal. By transforming how we identify and address collection 
gaps, we will produce fused intelligence, creating better 
situational awareness.
    We must also unify the community around priority missions, 
not around specific intelligence disciplines. Our mission 
manager approach allows leaders in the community to bring best 
solutions to solving a problem using multi-disciplinary teams 
across the community. It's worked well for us and we look 
forward to expanding that as we go forward.
    We will gain influence over our potential adversaries by 
exploiting America's advantage in technology and systems 
management. This will require us to radically rethink the way 
we identify, develop, and field promising new technologies. The 
current approach is too slow. It's too slow to counter the 
rapidly evolving threat. Specifically, this will require 
acquisition reform, streamlining the procurement process, and 
achieving greater synergies among our science and technology 
communities.
    It will be difficult to accomplish any of our objectives 
with the antiquated business practices of our systems today. We 
are working to deploy an integrated planning, programming, 
budgeting, and performance management process that aligns 
strategy to budget, budget to capabilities, and capabilities to 
performance. This requires timely, accurate, reliable financial 
systems with the ability to provide a quality financial 
statement.
    Where are we today on the question of DNI authorities? We 
seek national intelligence authority that can focus, guide, and 
coordinate the agencies of the community to ensure that our 
customers get the service they need. We have some successes so 
far, but there are impediments that slow our ability to take 
rapid action. We will continue to address these impediments 
forcefully, exercising our current authorities.
    We are working as a member of an interagency process to 
update current executive guidance on the operation of the 
community. One of the main focus areas of this interagency 
process is recommendations to the President for changing the 
executive orders that govern our community. However, while we 
work this interagency process, there are a few areas in which 
your support is needed.
    Personnel policies can be both transformational and serve 
to create a common culture. We request that you act on the 
recommendations that we have identified to build and support a 
unified civilian workforce across the community. This includes 
proposals to allow us to implement modern compensation 
practices for all of our civilian employees; place all civilian 
employees in the excepted service; and provide for critical-pay 
positions. We also request relief from rigid civilian end-
strength ceilings. These reforms would provide the community 
with flexibility to most effectively implement our joint-duty 
program, create a performance culture, reward and retain our 
best employees, and generally improve the strategic management 
of the workforce.
    In conclusion, Mr. Chairman, with your support, we're on 
the right path. We've got a lot of work left to do. But we're 
working hard to create that decision advantage to serve the 
leaders of our Nation, to protect our citizens, our values, and 
our way of life. Thank you, sir.
    [The prepared statement of Director McConnell appears on 
page 29.]
    Chairman Rockefeller.  Thank you, Director McConnell. The 
Senate, in its constant effort to be helpful to hearings, 
witnesses, and Members, has a vote about half the way through. 
After that, there is one more. And so, to my regret, I must ask 
that you be patient, which you have learned to be, and that we 
go vote and come back quickly after we've voted on the second 
vote. I apologize.
    [Whereupon, from 3:11 p.m. until 3:44 p.m., the Committee 
recessed.]
    Chairman Rockefeller.  The hearing will resume, with all 
appropriate apologies to a very busy man.
    If you gave an order, as DNI, to the CIA or the DIA or NSA 
or somebody else, and they decided they wanted to ignore your 
order in full or in part, what would you do?
    Director McConnell.  It would depend on the circumstances, 
of course. If I considered it appropriate and reasonable, then 
I would insist on getting it corrected, and that they would do 
what I asked them to do. And there are a variety of ways to do 
that. Fifteen agencies work for another cabinet officer, so one 
option is to work it out with the cabinet officer. I always 
have recourse to fall back to the President if necessary; it's 
something I would not want to do and would make every effort to 
work around, but that is the option that I could exhaust if I 
had to.
    Chairman Rockefeller.  But you wouldn't have any lack of 
confidence that what you saw to be what should be done would be 
done?
    Director McConnell.  No, sir. One of the things that the 
bill created was something called the JICC, and I don't 
remember how it expands, but it's Joint Intelligence Community 
Council. That's the cabinet officers and interestingly, I chair 
it; I have cabinet rank but, as you know, I'm not a cabinet 
officer. So this is the Secretary of Defense, Secretary of 
State, Secretary of Treasury, Energy and so on. We meet three 
times a year; we talk about priorities and so on. And since I'm 
a member of the Principals Committee in the White House I am at 
all of those decision bodies, so I know these people and we 
work with them on a regular basis.
    So I think, if it was something in extremis that had to be 
done immediately, there's a path to get that done; if there's 
something more of a policy nature, there's a path to get that 
worked out. So it's not like having a department of 
intelligence--I mean, for sure, that's clear hire-fire 
directive authority. I have more of a coordinating role, but if 
I felt strongly about it as a professional in the interest of 
protecting the country, for whatever reason, I think I could 
prevail in the debate and dialogue and always have the 
President to go to if necessary.
    Chairman Rockefeller.  I want to come back to you on that.
    Mr. Director, I want to ask a question which some will take 
as political but I take as policy. The House has left; I'm 
meeting with Chairman Reyes of the House Intelligence Committee 
tomorrow morning at 10 because he's concerned, and I think that 
John Conyers and Pat Leahy are going to meet, I'm not sure, but 
I know I'm going to meet with him to figure out what's down the 
path for FISA. There's no question the President had what he 
wanted in our bill and he made it very clear on 1 day, and then 
on the next day he proceeded to make it very clear that this 
was a terrible thing that the House was doing and that 
intelligence collection would stop and that they should be in 
danger to terrorists from, you know, sort of from Sunday 
morning.
    So I want to ask this question: You and I both don't want 
to see the Protect America Act expire on Saturday. You're clear 
about that; we're all clear about that. I believe the best way 
to handle the fact that the Senate sent the House a bill only a 
few days before the expiration of the Protect America Act and 
this, for the second time, does in fact give them reason to be 
upset with us, pushed around by us.
    I look at it differently. I think that it'd be great if we 
agreed on a short-term extension, but that isn't going to 
happen. Be that as it may, I believe it would be responsible 
for us to help the American people--and I'm doing this hoping 
that people will be listening--understand what the government's 
anti-terrorism capabilities will be in the days ahead.
    In other words, if the Protect America Act is expiring on 
Saturday night, the natural inclination is to feel that that's 
the end of collection and so Usama, when are you coming. Isn't 
it true that the intelligence collection gap, which was 
discussed a great deal at the end of last July, you described 
that last summer with respect to the coverage of international 
terrorists, has been closed?
    Director McConnell.  We've significantly improved our 
posture since last July, yes, sir, because of the Act that you 
all passed last August, the Protect America Act.
    Chairman Rockefeller.  Right, right.
    Isn't it true that the targeting and collection of 
communications of foreign terrorists now underway, pursuant to 
the Protect America Act, will continue even after the sunset of 
the Protect America Act?
    Director McConnell.  The provisions of the bill allow us, 
once we had submitted to the FISA court the procedures and so 
on were approved and we are loaded--from the date that's 
approved we get a year. So at some level the collection will go 
forward if it, in fact, expires on Saturday.
    But now, that said, it's very important that I highlight 
for this Committee what else happened, what else. One, we lose 
the ability to compel the carriers to help us; two, there is no 
liability protection for the carriers, therefore they're 
thinking twice about helping us, making it much more difficult; 
and three, this is a very dynamic situation. While we may have 
something on some key targets that we're working, recruitment, 
training, different names, different personalities will pop up.
    Under the Protect America Act, that was manageable. So if 
it expires, that new dynamic would put us back in a position 
under the old FISA legislation, in which we would have to 
satisfy a probable cause standard if collection were obtained 
in this country, meaning a wire in United States.
    So there is some level of protection but it's not where we 
need to be. One, we don't have the carriers willingly 
participating with us and a way to compel them, and it's a 
pretty dynamic situation.
    Chairman Rockefeller.  Yes, but there the bulk part of the 
answer is that intelligence would continue to be collected----
    Director McConnell.  What is pre-loaded.
    Chairman Rockefeller [continuing]. --With worries, 
legitimate worries on your part about the withdrawal or 
whatever it might be.
    Director McConnell.  Yes, sir. What's pre-loaded and for 
where we still have continuing cooperation of the private 
sector.
    Chairman Rockefeller.  Right.
    Isn't it true that no vital intelligence collection now 
going on under the authority of the Protect America Act will be 
shut off on Saturday?
    Director McConnell.  It would not be turned off. The issue 
becomes compelling--private sector cooperation and then the 
things that change, yes sir, that's correct. The way you stated 
it is correct.
    Chairman Rockefeller.  Didn't the Congress specifically 
provide the Protect America Act authorizations continue in 
effect until their expiration?
    Director McConnell.  The way that you've framed it is true, 
but my response is also true. I mean, there is some provision 
for carryover but it has----
    Chairman Rockefeller.  I understand.
    Director McConnell.  It has issues, yes sir.
    Chairman Rockefeller.  And it is also not true that if we 
come to August, which is when it technically would expire, that 
there are relatively easy ways for that to be continued if we 
have not worked out----
    Director McConnell.  No, sir, I wouldn't agree with that.
    Chairman Rockefeller.  You would not agree with that.
    Director McConnell.  I wouldn't, and the reason is we'd 
find ourselves in a situation that we found ourselves last 
July. Remember when this was returned to the FISA court in 
January 1907, the initial response on the FISA court, we had 
fairly broad capability to do what we needed to do. But as 
subsequent judges looked at the situation and interpreted the 
words in the law going back to 1978, over time capability was 
subtracted from us and so, when we went into July 1907, we had 
lost about two-thirds of our capability.
    Chairman Rockefeller.  Right, last year.
    Director McConnell.  Last year. So my point is, going into 
the way you framed your question, if we got to July or to 
August 2008 and the things we on coverage under the Protect 
America Act expire, we would be back in that same situation.
    Chairman Rockefeller.  I apologize to my colleagues but 
I've got to ask this last question.
    If you have any uncertainties about this--and you do and I 
do--would it not have made sense for the President, in that 
there were reasons that we jammed the House because we were 
clogged in the Senate--we're not able to operate on amendments 
for a number of days--the House has been through this 
experience before and they don't like it and they're angry 
about it and you can see that in the results of the extension 
vote last night, that an extension of the Protect America Act, 
in order to allow these things to work out, which they surely 
would have been, would have been a good idea?
    Director McConnell.  Sir, when I went through this 
experience last summer one of your Members quoted that in the 
political context, I was a little over my head. I admit that 
was absolutely correct. This is a political process; I am a 
professional officer with professional responsibilities. So 
when I'm advising my committee, both committees, anyone that'll 
listen on the Hill or in the executive branch, I will advise on 
our intelligence condition. Now, this is a political process 
and so all I can do is tell you that if we extend the Act or 
the Act expires we're at a disadvantage. And so how it's worked 
out in the political process, that's going to be to those of 
you who are elected to those positions.
    Chairman Rockefeller.  Well, yes, it will be. And I thank 
you very much, and Senator Bond.
    Vice Chairman Bond.  Thank you, Mr. Chairman. I will offer 
a political suggestion and not ask you to comment since you are 
a professional officer.
    The House passed a bill. It was very different from our 
bill; it was clear that the President said he would not sign it 
because you said it would not work. There is nothing in the 
rules of the House or any other body that prevent them from 
looking at that, understanding what's coming. They knew what we 
reported out in October; they knew that was the form that they 
would be dealing with in the House. So it is not a question of 
when we got it there so much as the inability of the House to 
deal with it. And I'll just leave that out there for no 
comment.
    I do want to ask you one thing on which you can comment and 
I think the important thing--and I appreciated the Chairman's 
question. The key point that you brought out was that, without 
the power to compel, without protection or retroactive 
protection, the carriers which may be involved in this program 
realize that they are suffering serious threats to their 
business livelihood and perhaps even their facilities and 
personnel if we don't give them retroactive immunity for the 
work that they've done. And thus, it is my assumption that 
general counsels of the carriers would be telling you, you show 
us a court order or we're not going to cooperate on anything 
which is not covered by a court order. Is that a fair 
assumption?
    Director McConnell.  Sir, it is fair and I would take it a 
step further. This has to be willing relationship, partnership, 
and so where we find ourselves now, even with a court order, 
some are saying we'll take it to court to verify.
    And what I want to highlight to you is for us to do this 
job it requires this willing cooperation. And if you think 
about this technology area, the United States industry 
dominates it; it's a strategic advantage for us. And so we're 
putting ourselves in a position that we can't capitalize on it 
and I would suggest even perhaps putting it at risk.
    What do I mean by that? It's very easy for competition in a 
foreign country to point to a company here and say you're being 
sued for spying on its citizens or whatever. Even if those 
allegations are totally out of order it could damage your 
brand. And so with Sarbanes-Oxley, fiduciary responsibility to 
shareholders and so on, we've put these companies in a position 
where they feel like they're being punished for trying to help. 
So that's the mitigation that we've got to get through to get 
this protection for them.
    Vice Chairman Bond.  Thank you for that explanation, Mr. 
Director. This hearing is one I've wanted to have for a long 
time, and I hate to be taking up questions that are of more 
immediate import, but I found the debate yesterday on the 
floor, and particularly the news coverage of it, somewhat 
troubling. The floor adopted the intel authorization bill, 
approved in conference with what I consider to be one very bad 
provision requiring that the CIA be limited only to those 
techniques approved in the Army field manual.
    I'd ask you to comment on that in a second, but I want to 
ask you to address specifically some of the charges and 
allegations that I think were either badly misinformed or 
irresponsible, that we heard on the floor and that were covered 
in the media. I spoke today with an international broadcast 
group asking me questions to be fed back into the Middle East. 
They picked up statements that were made on the floor that I 
believe to be absolutely false.
    So first, I would like to ask you, the eight prohibited 
techniques that the Army field manual specifically prohibits, 
they are repugnant; I believe they probably violate treaty 
obligations. I want to know whether there is any intent or 
whether there's any chance the CIA would use those or use 
torture, or use waterboarding.
    I believe that the argument is appropriately separate from 
the discussion we heard on the floor, saying this bill outlaws 
torture, outlaws waterboarding. I do not believe that we need 
any more legislation. I believe that is outlawed; I believe it 
is not used. I would like your comments specifically on that 
and your comments on what would happen to the CIA's 
interrogation of high-value detainees were they to be limited 
to the unclassified and thus published techniques in the Army 
field manual.
    Two-part question.
    Director McConnell.  Sir, let me define sort of the 
boundaries of law as this imaginary box I'm outlining with my 
hands. That box is a result of the American political process; 
it defines our rules, that's our law. The Army field manual in 
the context of this box is a small circle in the middle of it. 
It's designed for a specific purpose, for men in uniform, 
generally younger, less experienced and less trained, for a 
specific purpose. So the question becomes, do you limit the CIA 
and its interrogation program to that small circle?
    Now, the President stated what his intentions are, but the 
question is what's inside that box and is it lawful. If it's 
lawful as determined by the American political process, then 
CIA would use those lawful techniques in certain prescribed 
circumstances.
    Now, as you've alluded to there are enhanced interrogation 
techniques currently; waterboarding is not included in that. If 
it were ever decided, for any reason, that waterboarding should 
be included in that, there's a process to make that 
determination, to determine if it's legal. The law has changed 
since waterboarding was last used some 5 years ago, so I don't 
know if I'm answering your question but it's----
    Vice Chairman Bond.  The eight techniques that are 
specifically prohibited in the Army field manual, burning and 
electric shocks, those----
    Director McConnell.  Those clearly are illegal and are not 
appropriate for anyone, to include the CIA certainly. The ones 
that are specifically--the things that you just mentioned, yes 
sir.
    Vice Chairman Bond.  And the final question was what would 
happen to the CIA interrogation program if they were limited to 
that small circle in the big box of permissible techniques?
    Director McConnell.  It could not be as effective as they 
have been in certain circumstances, and what I would describe 
as--it's a point in time. When those techniques were used, we 
knew little about an organization that had just attacked the 
World Trade Centers and we had captured some hardened 
terrorists, and so there were some interrogation techniques 
used that resulted in useful information.
    So is that something that's exercised every day on anyone 
that's captured? No. Would it be done today the way it was done 
back then? Probably not. One of the main reasons is we know so 
much more. It's very easy to have an interrogation if you have 
lots of answers that you can use to test and probe and 
establish a relationship. Anyone would prefer a non-
confrontational approach if possible, but still what's in the 
box, so long as it's not torture as defined in the American 
political process as being legal, then the CIA would be capable 
of using some of those techniques.
    Vice Chairman Bond.  Thank you.
    Chairman Rockefeller.  I would like to say to my colleagues 
that the hearing is not about the question I asked or the 
questions the Vice Chairman asked, although they have their 
interest, but it's about the condition and the authorities and 
the ability to maneuver and to lead of the Director of National 
Intelligence in a way that is most efficacious. So I would ask 
that questions would reflect on that matter, and Senator 
Whitehouse is next.
    Senator Whitehouse.  Thank you.
    Admiral, first let me ask you to comment on this assertion, 
if you could tell me if it's true or false: Your surveillance 
of anyone affiliated with al-Qa'ida or any organization 
affiliated with al-Qa'ida, or any person affiliated with any 
organization affiliated with al-Qa'ida, will continue unimpeded 
through any period in which the so-called Protect America Act 
is not in effect, at least until August of this year. Is that 
correct?
    Director McConnell.  I don't think that's correct, sir, but 
let me ask for some legal help. Let me tell you my 
understanding. We have certain procedures that are sort of 
loaded, been approved by the court and so on. In a dynamic 
situation, if there was someone outside that, I----
    Senator Whitehouse.  Someone outside al-Qa'ida or an 
organization affiliated with al-Qa'ida?
    Director McConnell.  I'm using known to us or outside a 
specific list of identifiers or that sort of thing. I think if 
the Protect America Act expires it would put us back in a 
situation of probable cause if the collection was done in the 
United States on a wire. And I think that's the answer but let 
me get some----
    Senator Whitehouse.  Unless they were affiliated.
    Director McConnell.  No, if it's done--if PAA expires and 
it's done in this country, it would require you to have a 
warrant, I believe. But let me get someone who actually knows 
the answer. Ben, are you here?
    Mr. Powell. To the extent someone is covered under an 
existing authorization--an authorization for an acquisition 
signed by the Attorney General and the Director of National 
Intelligence and that has been issued, those continue for up to 
1 year even beyond the expiration of the Protect America Act. 
Directives issued under those authorizations may also continue 
under those also.
    Senator Whitehouse.  And those authorizations may include 
organizational authorizations so that new individuals who are 
affiliated with the organization can nevertheless be 
surveilled, correct?
    Mr. Powell. We would certainly take that position, Senator. 
What we could not do is the issues that are raised in the 
Attorney General and DNI's letter are if we need to modify or 
issue new directives pursuant to those authorizations to 
different electronic communication service providers or 
different methods than what are covered in existing directives, 
or modify those authorizations and directives, which we have 
done over the past 6 months, then, there's also a substantial 
question in the wording of the Act--although we hope we have 
good arguments but it may be litigated--of whether the 
liability protection continues on because that is in the 
wording of what actually continues on. So as the AG laid out 
there's uncertainty in all those different areas.
    Senator Whitehouse.  But not as to your ability to surveil 
people who are affiliated with al-Qa'ida.
    Mr. Powell. Certainly the authorization, if it covers the 
authorization for the acquisition, then it would continue. It's 
the implementation of it that creates concern with the private 
sector.
    Director McConnell.  Also, there's an issue of compelling. 
If you have assistance and it expires, can you now compel? That 
could be challenged. And so our worry is we're much better with 
certainty so we know what the rules are; if it changes, you 
never know how it might be ruled.
    Senator Whitehouse.  There was an incident recently in 
which the Director of National Intelligence, then John 
Negroponte, instructed the head of the CIA, then Porter Goss, 
that CIA interrogation tapes were not to be destroyed. As it 
turned out, they were in fact destroyed.
    Is there anything out of that circumstance that bears on 
the authority of the DNI versus the Director of the CIA? Do we 
need to strengthen the authority of the DNI so that when the 
DNI makes a statement like that to a CIA Director it becomes 
clear that it is, in fact, a decision that the agency must 
comply with? There's a command gap between DNI Negroponte 
making that statement and the action that took place in 
contravention of the statement, and where is that command gap.
    Director McConnell.  It's being investigated now and I 
haven't talked to Ambassador Negroponte, and I don't know all 
the circumstances. But if it were an order and if it were 
violated--two big ifs--then I would agree with the way you 
outlined it. But what I've heard just in people talking about 
it, it wasn't a direct order, it was an opinion; I don't know. 
But if the way you described it, it was an order and it----
    Senator Whitehouse.  Do you not see it as part of your DNI 
authority?
    Director McConnell.  I do, indeed. If it was an order and 
violated, then you'd have to deal with that situation.
    Senator Whitehouse.  One last, just quick reaction. You 
said that the Army field manual was designed for young men, 
generally less experienced, less well-trained.
    Director McConnell.  In uniform.
    Senator Whitehouse.  In uniform.
    I frankly don't think that's true, and I would challenge it 
and urge you to maybe reconsider it because what I understand 
is that the military has very significant and very experienced 
intelligence operatives. Men who I've spoken to have 22 years 
of interrogation experience. They run military intelligence and 
interrogation schools of 10-, 18-weeks' duration; they have, I 
guess you'd call it, sort of graduate-level courses. This is a 
matter--you have, you know, special-ops individuals, you have 
DIA folks. You have some of the very best intelligence and 
interrogation operators in the country in the United States 
military, and they are the ones who are telling us that they 
work very well within the confines of the Army field manual.
    And I think it's fair to have the discussion as to whether 
or not, at that level, the Army field manual is the right 
restriction or not.
    What is not fair, I don't think, is to take the military 
interrogation and intelligence operation and denigrate it, as 
if it's a bunch of 18-year-olds running around who have got no 
experience doing this and the Army field manual has to protect 
them from their naivete and their ignorance because it's the 
same field manual that applies to highly trained, highly 
professional, highly experienced individuals, many of whom have 
a lot more interrogation experience, it appears, than the folks 
in the CIA.
    Director McConnell.  Sir, what you're referring to----
    Chairman Rockefeller.  Please react to that.
    Director McConnell [continuing]. Is coercive techniques. 
And if you ask the FBI their opinion--and we just did this 
recently in a hearing up here--you get pretty much the same 
answer the way you just described it. The way I think of the 
Army field manual is primarily the lowest common denominator to 
protect the Nation from what happened--the heinous behavior at 
Abu Ghraib. So it is a course of action that was taken by this 
body and the executive branch to agree to how we're going to do 
that in the future, so that circle closed to be a smaller 
circle.
    What you say is true; they're very experienced people, but 
now they live within that circle. The question is, do we want 
to make the same circle apply to all parties, and that's the 
question that you all have to wrestle with.
    Chairman Rockefeller.  I would say to my colleagues the 
following: It may be that--and Senator Whitehouse did ask one 
question which was directly on point of the purpose of this 
hearing. It may be that my colleagues don't have an enormous 
interest in the powers and the authorities of the Director of 
National Intelligence and they wish to talk about other 
matters, which are much more fun to talk about, but they were 
not the point of this hearing; they were not the point of this 
hearing. That's partly my fault, and that's partly the Vice 
Chairman's point because we started out with two such matters.
    But the point is, does he have the authority that he needs? 
And if people feel that they are disinclined to engage in that 
subject, then I of course will be very happy to hear about 
that, but I'll be very disappointed, even to the point of maybe 
adjourning the hearing. Senator Feingold.
    Senator Feingold.  Mr. Chairman, I would not allow that to 
happen. My questions are exactly about the topic of this 
hearing. But I want to first say how valuable your questions 
were, and how important it was that you brought us to some 
clarity on the issue of what really happens if the PAA expires.
    Director McConnell.  And I agree with that.
    Senator Feingold.  Which, by the way, I oppose, letting 
that happen. And I also feel that way about Senator 
Whitehouse's about the Army field manual. These things are 
critical but I happen to find the topic of this hearing fun, as 
you say, or important. And let me just say, a little over a 
year ago, the Committee held another hearing on intelligence 
reform in which ODNI testified to its ability to lift and 
shift--``Lift and shift collection resources to address current 
crises such as Darfur and Somalia.''
    The problem, however, I think you might agree, is that 
lifting and shifting almost inherently means that it doesn't 
help us anticipate crises before they happen. It does not help 
the intelligence community develop experience or expertise on 
these threats, and it does not represent an ongoing commitment 
to long-term challenges. In fact, the Deputy DNI for collection 
acknowledged at our hearing that there is a ``need to get the 
intelligence community back to what I grew up calling `global 
reach.' We don't have that today.''
    She further testified that with Congress' help, the 
intelligence community can ``get back to a place where we can 
do global reach and pay attention to places that are not 
perhaps high on the list today.''
    Mr. Chairman, that is what we should be doing, pushing the 
intelligence community to allocate its resources in accordance 
with our national security needs and providing the DNI the 
authorities he needs to make that happen. And I'd ask that my 
full statement be placed in the record, Mr. Chairman.
    Chairman Rockefeller.  And it will be.
    [The prepared statement of Senator Feingold appears on page 
28.]
    Senator Feingold.  Mr. Director, do you agree with the 
statement in the most recent annual report of the U.S. 
intelligence community that ``one challenge to improving the 
coverage of emerging and strategic issues across the 
intelligence community has been the diversion of resources to 
current crisis support.''
    Director McConnell.  Certainly current crisis support takes 
a disproportionate share, but let me just offer how we try to 
mitigate that. We have a thing we call the national 
intelligence priorities framework, and we make that dynamic. 
Every 6 months we go through a process leading up to the 
signature by the President, and the way we get to closure is 
the cabinet officers sit and we take them through a dialogue. 
What are we, the intelligence community, looking at, what are 
we not looking at. And we have added some dynamics to that in 
the last cycle because cabinet officers tend to focus on the 
here and now.
    And it was to get at your question. What about those areas 
that we don't have as much focus on and how do we do that. So 
they've engaged in a very positive way, so we're trying to get 
back to addressing your question.
    Senator Feingold.  Well, I think with regard to that, last 
year your office testified about its authorities to lift and 
shift collection resources to address crises. Does what you 
just said mean that the ODNI has moved beyond lift and shift to 
ensure that sustained attention is paid to regions that are 
traditionally underserved by our intelligence community, or is 
it not a fair----
    Director McConnell.  No, that is fair. I personally don't 
like the term ``lift and shift.'' That's crisis management in a 
collection situation. But the whole nature of the priorities 
framework, national intelligence priorities framework, was to 
force focus on the areas that were not getting as much 
attention.
    And it's changed quite a bit, what we're looking at, how 
we're doing it, and the resources we're dedicating to it.
    Senator Feingold.  Well, I think about this a lot, 
especially in trips and my work in Africa with regard to the 
Foreign Relations Committee. And last week you testified that, 
``Kenya is likely to enter a period of increased social tension 
and instability which could affect its willingness and ability 
to cooperate with the United States on regional, diplomatic, 
and counterterrorism matters.''
    This is exactly the kind of strategic challenge to the 
United States that we need to anticipate rather than just 
respond to. It also demonstrates clearly how issues like 
political repression and corruption, ethnic tensions and the 
destabilizing pressures of poverty and marginalization directly 
affect our national security.
    So Mr. Director, what are you doing to direct collection 
resources toward these sorts of issues, so that we don't find 
ourselves unprepared for crises that directly threaten our 
diplomatic and counterterrorism efforts. I mean, I just think 
about how I went to Kenya so we can talk about Somalia and 
Sudan and then, all of a sudden, we have this just extreme 
political crisis in Kenya and what an impact it has on us as 
well as on the Kenyan people.
    Director McConnell.  Part of the way we do this, as I 
mentioned in my remarks about mission managers. A mission 
manager took on a political context because if you have one, 
then the Nation that it focuses or the region it focuses on 
gets--there's a reaction. So what I'm looking at is how do I 
get the benefits of mission management in the construct of how 
we currently operate.
    And as you know, we have National Intelligence Council, 
which consists of National Intelligence Officers. Those are our 
most senior officers in the community for a region. What I want 
to do is empower them to work across the disciplines--HUMINT, 
SIGINT, imagery, whatever--and get real focus. And then there 
is a constituency for every region of the world, Department of 
State, Defense, or wherever, and have active dialogue with them 
to understand more their needs and so on.
    And we're starting to have some traction. There's been 
particular focus on Africa because of Kenya, because of Chad, 
because of Somalia. So we're better--not where I would like to 
be but we're better--and it's making us more sensitive in a 
global context.
    Senator Feingold.  Thank you, Mr. Director. Thank you, Mr. 
Chairman.
    Chairman Rockefeller.  Thank you, Senator Feingold, and 
thank you for your interest in these matters which are 
important.
    Senator Wyden.  Mr. Director, out of deference to the 
Chairman I admire very much, I'm going to set aside questions 
that I had planned to ask about the last couple of days, and 
let me start then with respect on the authority question, just 
in matters of fiscal responsibility.
    What I've long been concerned about is that there's a habit 
in the intelligence community of beginning these very large 
acquisition programs, and nobody's really quite sure how to pay 
for them down the road. I think you've been concerned about 
this as well, and you've talked about a variety of strategies 
that you've been interested in, including auditable financial 
statements and a variety of things.
    But what have you been able to accomplish thus far to make 
sure that the intelligence community doesn't spend these huge 
sums of money on these major acquisitions that are going to 
later have to be canceled on the grounds that they're 
unaffordable and in effect don't give you value for the dollar 
that you're allocating?
    Director McConnell.  Yes, sir. Excellent question, 
something I'm very concerned about and focused on. Let me 
capture sort of three areas of interest with acquisition where 
we get ourselves in trouble. The first is requirements creep. 
We're going to design something, build something, whatever. And 
then as we go through the process, everybody wants to add 
another capability, another capability. So all of a sudden, it 
becomes unaffordable. The schedule slips or we have a major 
problem. So we have to do a better job in containing 
requirements creep.
    The second thing is we lost a generation of program 
managers. When the dot boom occurred in the nineties, many of 
the people with the skill sets that built large systems were 
attracted to the private sector and they left. So we suffered 
from an inadequate supply of professional program managers. So 
we recognized that, and we're trying to rebuild that 
capability.
    Another part of it is having realistic cost estimating. The 
idea is don't start something you can't afford. Now, if we can 
do that--and we established the new deputy on our staff, deputy 
for acquisition, someone experienced--more than 30 years in 
industry--to work through these issues, and now hard decisions.
    As you're aware, we had a program that was multibillion 
dollars that was putting us in a position of being a one-point 
failure. And so we took that on as a community. In my Executive 
Committee I mentioned earlier, we took it to all of the parties 
that had to make a decision and finally took it to the 
President for a decision for coordination with the Hill.
    Now, that I think gets us back into focusing in an area 
looking at the architecture, what's affordable, how would you 
manage it. We started a process we call ICA, Intelligence 
Collection Architecture, that's to force us to look at the 
discipline, the cost, and the schedule so that we will choose 
things that are affordable in the best interest of the Nation.
    So I feel like we're making progress. But one of the things 
that I would ask your support on--currently your bill or the 
bill for this office gave me authorities for streamlined 
acquisition. The problem is, you didn't give me the authority 
to delegate them to anybody that spends money. So while the DNI 
and the Director of the Central Intelligence Agency have 
special authorities to do special things--can take risks, can 
go fast--and you gave it to me, it's only for my staff and not 
for the rest of the community. I need that authority for the 
rest of the community.
    Senator Wyden.  And I'm sympathetic to that. Let me ask you 
about something that came up in an open hearing not long ago 
that my constituents just were kind of slack-jawed when they 
heard about it, and it goes to, again, the question of your 
authorities with respect to the problem. At one of the open 
hearings we had last fall, Willie Hulan, a senior FBI official, 
acknowledged that a large number of FBI agents and analysts 
don't have access to the Internet at their desk.
    And Committee staff have found that there were similar 
access problems existing for the FBI's top-secret system, 
particularly for the offices overseas. You and I have talked 
about technology in the past, and I know you have a great 
interest in this. What can you do with your authorities to in 
effect address something that I think just defies common sense?
    Director McConnell.  In this case, I can offer to help, and 
we've done that. We've put technical people into the process to 
help to think it through and do requirements and that sort of 
thing. And I have some budget authority.
    Now, it's much more clearly defined, understood, and in 
action for the agencies that are in the Defense Department. 
It's less clearly defined for agencies outside the Defense 
Department. So that's something we recognize and we're working 
through it.
    And let me just make one other point so you capture this. 
On the executive committee that we've established to run the 
community, the Director of the FBI is now a member of that. He 
participates actively and he is now benefiting from some of 
this deliberative process. So I think that will make a 
difference.
    Senator Wyden.  Thank you, Mr. Chairman.
    Chairman Rockefeller.  Thank you very much. I annoyed the 
former owner of the meager territories of West Virginia, the 
honorable senior Senator from West Virginia, by pointing out 
that we're having more votes at 4:30 and that's not much time. 
So now we have three more people who wish to speak and they're 
probably not even going to get a full 5 minutes. So Senator 
Feinstein----
    Senator Warner.  I also asked you to take judicial notice 
that it's Valentine's night and some of us have some 
responsibilities. [Laughter.]
    Senator Feinstein.  We're all in favor of that.
    Senator Warner.  I know your wife is expecting you for the 
first time for dinner in a long time.
    Director McConnell.  That's exactly true, yes, sir.
    Senator Feinstein.  If I may, Admiral, in addition to what 
Senator Wyden's point was and your response to it, are you 
saying that you believe you have adequate budgetary authority 
at this time?
    We had a conversation about a year ago. It was a personal 
conversation. And you said you hoped to work this out 
internally. You told us earlier about some of the ways you 
would work it out. And so I guess my question to you is, 
without specific additional budgetary authority, do you think 
you have what it takes to do what is necessary to correct many 
of the big problems within the intelligence community?
    Director McConnell.  Ma'am, partially. And let me tell you 
exactly what the issue is. The law says that if it's an 
acquisition by a defense agency, which is where most of the 
acquisition is done, and it's funded by the National 
Intelligence Program, then I must share jointly with the 
Department of Defense what's called MDA, Milestone Decision 
Authority.
    It is silent on any program where the Department of Defense 
is also contributing money, military-intelligence program, into 
a major buy. And what's happened over the last, say, six or 8 
years is major systems have moved all into defense, all into 
the national program or a hybrid, where they are split-funded. 
So it's mixed. There's been a lot of to-ing and fro-ing between 
staffs about we'll use these procedures or those procedures. 
The poor guy is trying to buy things. We're getting double 
reviewed and two sets of procedures and so on.
    So I sat down with Secretary Gates and said, this is 
untenable. He's agreed to a process. Where we are now is in 
interagency coordination for the directive. This is 
interagency; it will go to the principals within 2 weeks, and 
what we'll do is make recommendations to the President. So we 
hope to have this clearly defined and resolved. I would say 
it's scheduled for signature by the 15th of April. If it 
doesn't happen, then I have an obligation to come back to tell 
you it didn't happen and I need some help.
    Senator Feinstein.  Okay, good, because I think it's our 
intent that you have that authority, at least it certainly is 
mine, so I want to help with that any way I can.
    One of my concerns has been the growth of contractors 
within the agency and there's been difficulty in getting any 
clear understanding of how many contractors are really within 
the intelligence community. If you exclude the construction of 
satellites, which is necessarily done by contractors, how many 
contractors are there in the intelligence community?
    Director McConnell.  Ma'am, I think--well, two things. 
We've done a report, so we can make that available to you, and 
I think it's a classified number, but let me just verify that.
    It's a classified number but it breaks it out----
    Senator Feinstein.  I'll bet it's huge.
    Director McConnell.  It's a large number.
    Senator Feinstein.  Is it? Go ahead.
    Director McConnell.  And we'll just bring it up to let you 
look at it and then you can ask detailed questions on why this 
and why that, and so on.
    Senator Feinstein.  All right. Now, your office is now up 
to 1,750 people. I gather 40 percent of that is the 
Counterterrorism Center, which you inherited, but the remaining 
60 percent is not. Is that a stable size at this point or is it 
going to continue to expand?
    Director McConnell.  Ma'am, what I would like to do is cap 
my office at a level like the Joint Chiefs of Staff, just cap 
it at a reasonable place, whatever that is, and I'd like to get 
help from you to do that.
    Now, that said, this is what I need you to also help me do. 
The Joint Chiefs of Staff is capped; the services or our 
defense agencies, can grow or contract depending on the 
mission. So I need to have the Counterterrorism Center, the 
Counterproliferation Center, the Counterintelligence Executive; 
you know, all these little things, they need to be treated as 
second echelon command so they can do whatever they need to do. 
And I've got a staff that's capped at a set level. You can see 
it; we can manage it and we can live within our cap. That'll 
let me manage it, because I don't have a profit motive like I 
would have in industry, so I'm looking for a way to force us to 
deal with a given size, just the way the Joint Chiefs work.
    Senator Feinstein.  Let me just say I think that would be 
very good and very positive because I think it's kind of Never-
Never Land for you the way it is now, so that would be very 
useful, thank you.
    Chairman Rockefeller.  Thank you, Senator Feinstein.
    Senator Feinstein.  Notice it's only a yellow line.
    Chairman Rockefeller.  I know. You have thirteen seconds 
left.
    Senator Snowe, and then the most esteemed Senator Warner. 
And our votes start in 3 minutes.
    Senator Snowe.  Okay, I'll be very quick, Mr. Chairman. 
Welcome, Mr. Director, I appreciate you being here today, and 
your straightforwardness and forthrightness and I know you've 
faced considerable challenges as you assumed your position.
    I was just curious. In reading your statement, you 
mentioned that you had focused the DNI's role as the integrator 
of the intelligence community. And I'd like to have you clarify 
that in terms of exactly what are the natures and dimensions of 
your power, because when this Act became law 4 years ago, the 
President was referring to it as a single, unified enterprise 
for the entire intelligence community. It was certainly 
understood that you would have unified command over the 
intelligence agency. So how do you view your role now as an 
integrator as opposed to a director, one who obviously should 
be taking charge of the responsibilities within those 
agencies--not day-to-day control but certainly being able to 
direct. I know you've chosen a middle ground in all of this and 
yet, how does that dovetail with the original intent of the 
law?
    Director McConnell.  Ma'am, as you know, if you're director 
you have line authority, and there are 16 agencies, and, of the 
16, 15 of them work for another cabinet officer. So as a 
practical matter, I'm in a situation where it's someone in a 
department with a different set of personnel standards and a 
different set of hiring and firing policies and so on. So it's 
not that I can give direct orders to someone else's 
organization. There's a cabinet secretary between me and the 
process.
    So what we've worked out is to operate in a sense as a 
unified community, and we use this executive board to do that, 
and we have the cooperation so far of the cabinet officers. The 
only way I could see to change that dynamic significantly would 
be to create a Department of Intelligence, and then it would be 
operated like other departments where you have line authority. 
So right now there is some level of cooperation and integration 
and management skills that are involved in keeping this 
community unified.
    Senator Snowe.  Do you think that is consistent with the 
original Act?
    Director McConnell.  Ma'am, those are the words from the 
original Act. I mean, you well know the debate was the 
Department of Intelligence or a coordinator, although it's 
labeled director, across the community. And the words in the 
Act left it, the position, without authority for line-direction 
capability.
    Now, in this interagency process we're going through now, 
it's been recognized. We're trying to get an executive order 
that will help us make this a stronger position.
    Senator Snowe.  I guess it gets back to the original 
question and premise of whether or not you're seeking 
additional statutory authority.
    Director McConnell.  We have to go through this executive 
order process first.----
    Senator Snowe.  And then you're going to because I think 
it's absolutely critical. I mean, you can go back to this point 
about time is of the essence because it has been 4 years and I 
think that the time has come to make a decision so we can 
create the culture that's still under way, which is also 
disturbing about creating a culture of collaboration; you know, 
the need to share that information.
    And that obviously still is not being truly embedded in the 
culture and that's disturbing, and so we need to move to a 
point. I think that we should have a timeline and if we have to 
change the law then I think we need to do that in order to make 
sure it happens. Otherwise we're going to be in the same 
situation, and who knows if we don't understand the nature of 
the consequences as a result of our inability to do that.
    And so it's clear that the Director does need strong 
authority, and the question is whether or not we should be 
prepared to undertake that. And frankly, I think it has to 
happen in order to ensure--I don't think we view the role of 
Director as being just an integrator but also a unifier, and 
this issue you're dealing within the limitations of the law----
    Director McConnell.  Right, that's the issue.
    Senator Snowe [continuing]. And that's what we have to 
recognize, our responsibilities. I think you're doing 
everything you can within your prerogatives, and we appreciate 
what you are doing. Thank you.
    Director McConnell.  Thank you, ma'am.
    Chairman Rockefeller.  The former Secretary of the Navy.
    Senator Warner.  Thank you, Mr. Chairman. I thank 
colleagues for shortening the questions.
    I'm a strong proponent, as you well know and perhaps you've 
followed some of our debates on the floor. I've joined my two 
colleagues on this FISA issue, but I think we're losing sight 
of one aspect of the urgency of getting this into a final form 
of legislation and on the President's desk, and that is that 
part of your collection under FISA goes, either directly or 
indirectly, or both, right down to the tactical level and 
operating level of the United States military wherever they are 
in the world, namely in Afghanistan and in Iraq. Am I not 
correct on that?
    Director McConnell.  Yes, sir, you're absolutely correct.
    Senator Warner.  Well, we've got to drive that point home, 
that the very men and women of the armed forces, who we all 
adore and love here at home--I've never seen greater support 
for the uniformed people than there is today--they may not be 
entirely sympathetic with some of the goals that were staked 
out in these two campaigns but they're behind their people, 
that's for sure, and the safety of these people, their ability 
to operate and perform the missions that they're performing 
today, are dependent on FISA collection.
    Director McConnell.  Yes, sir. The change of the global 
communications system has made what you said exactly correct. 
There was a time when it was mostly tactical, push-to-talk, 
line-of-sight sort of things, but today it's not unusual for 
communications to move around the globe and back to the 
battlefield, and our ability to capture that information for 
direct tactical support can be impacted.
    Senator Warner.  Well, I mentioned that on the floor of the 
Senate yesterday, in a speech that I gave on this question.
    I've listened to my good friend over here, the Senator from 
Rhode Island, question you about your authority and the orders 
that were given and were they followed, but let me try and 
recast the question. And that is--I think you may have answered 
it in the context of my good friend here from Maine--you don't 
have that line authority that we somehow felt that we were 
intending to give you.
    Director McConnell.  No, sir, I do not.
    Senator Warner.  And, for instance, if there were tapes 
today in the possession of one of these numerous agencies that 
you have coordinate responsibility over, you can't order them 
not to destroy them.
    Director McConnell.  In one case I could, CIA; I have line 
authority there. But in the others there's a Cabinet secretary 
that could have a different----
    Senator Warner.  Well, you do have that absolute line 
authority right down to all entities in the Central 
Intelligence Agency.
    Director McConnell.  Central Intelligence Agency, yes sir. 
But that's the only one.
    Senator Warner.  That's the old DO as well as the----
    Director McConnell.  No, they would want to negotiate. I 
mean, as you know this is a strong, proud organization. But in 
the final analysis in the law, I have that authority, yes sir.
    Senator Warner.  Well, that clarifies that, and I thank the 
chair for the cooperation.
    Chairman Rockefeller.  No, I thank the senior Senator from 
Virginia, our former oppressors----
    Senator Warner.  I offered to you to unite the two states 
if you want to; I mean, I'm retiring, a vacancy occurs, and 
therefore you can keep your slot. [Laughter.]
    Chairman Rockefeller.  Well, we've got a couple of counties 
that'd probably like to come over and join you.
    That being said, Mr. Director, you have a way about you 
with words and diplomacy that you give us a lot more 
information, I think, quite knowingly, than you lay out on the 
record to be picked up in a broader way, and I think we want to 
be responsive to you. You laid out some major issues today. You 
have to have authority, you have to have a hammer, and it's 
delicate, and large agencies are terribly difficult to get to 
change.
    But in any event, with a few exceptions, I thought this was 
an extremely valuable hearing and I greatly appreciate the fact 
that you came, and I less appreciate the fact that we have to 
go vote.
    Director McConnell.  Thank you, sir.
    Chairman Rockefeller.  The meeting is adjourned.
    [Whereupon, at 4:38 p.m., the Committee adjourned.]
                       Submissions for the Record

   Prepared Statement of Hon. Russell Feingold, a U.S. Senator from 
                               Wisconsin
    Mr. Chairman, the question of the DNI's authorities is too often 
discussed in abstract terms, in part because the underlying 
bureaucratic tensions are often opaque. But we should not forget that 
there are real issues at stake, including whether the ODNI has the 
ability to redirect intelligence resources to meet our national 
security needs. That means not just responding to the latest threat or 
crisis, but committing to a long-term, strategic collection strategy 
that seeks to anticipate threats and crises before they happen. It also 
means allocating collection resources toward transnational threats that 
appear in regions of the world traditionally underserved by our 
Intelligence Community.
    The most recent National Intelligence Strategy published last year 
acknowledges the problem. The strategy identified five major missions 
of the Intelligence Community, the first two of which--defeating 
terrorism and preventing and countering the spread of weapons of mass 
destruction--are global and transnational in nature. And the third--
bolstering the growth of democracy and sustaining peaceful democratic 
states--also requires global commitment of intelligence resources. The 
strategy goes on to describe the need to ``anticipate developments of 
strategic concern and identify opportunities as well as vulnerabilities 
for decisionmakers.''
    Yet the most recent Annual Report of the United States Intelligence 
Community warned that ``one challenge to improving the coverage of 
emerging and strategic issues across the Intelligence Community has 
been the diversion of resources to current crisis support.'' And one 
look no further than the current crisis in Kenya to understand why 
sustained attention to issues such as political repression and ethnic 
tensions are critical to our national security. As the DNI testified 
last week, ``Kenya is likely to enter a period of increased social 
tension and instability, which could affect its willingness and ability 
to cooperate with the U.S. on regional diplomatic and counterterrorist 
matters.''
    A little over a year ago, I raised my concerns during another 
hearing of this Committee. At that time, the ODNI testified that it had 
used ``lift and shift'' authorities to respond to collection needs 
related to Darfur and Somalia. The problem, however, is that the use of 
these authorities do not help us anticipate crises. They do not help 
the Intelligence Community develop experience or expertise on these 
threats. And they do not represent an ongoing commitment to long-term 
challenges. In fact, the Deputy DNI for Collection acknowledged that we 
have not yet committed to long-term, global collection strategies. At 
our hearing, she testified that there is a ``need to get the 
Intelligence Community back to what I grew up calling global reach,'' 
adding that ``we don't have that today.'' She further testified that 
``our challenge is, until we reach that point--with [Congress's] help--
of getting back to a place where we can do global reach, and pay 
attention to places that we are not--perhaps, high on the list today.''
    Mr. Chairman, that was more than a year ago. We cannot accept 
inertia. Nor can we assume that the DNI will, or can fix this problem 
on his own. As the former Deputy DNI testified, Congress needs to be 
involved, pressing the Intelligence Community to allocate its resources 
in accordance with our national security needs and providing the DNI 
the authorities he needs to make it happen.
[GRAPHIC] [TIFF OMITTED] T8099.001

[GRAPHIC] [TIFF OMITTED] T8099.002

[GRAPHIC] [TIFF OMITTED] T8099.003

[GRAPHIC] [TIFF OMITTED] T8099.004

[GRAPHIC] [TIFF OMITTED] T8099.005

[GRAPHIC] [TIFF OMITTED] T8099.006

[GRAPHIC] [TIFF OMITTED] T8099.007

[GRAPHIC] [TIFF OMITTED] T8099.008

[GRAPHIC] [TIFF OMITTED] T8099.009

[GRAPHIC] [TIFF OMITTED] T8099.010

[GRAPHIC] [TIFF OMITTED] T8099.011

[GRAPHIC] [TIFF OMITTED] T8099.012

[GRAPHIC] [TIFF OMITTED] T8099.013

[GRAPHIC] [TIFF OMITTED] T8099.014

    Question 1: (U) Please define the difference between the NIP and 
the MIP. Is there any ambiguity in the definition? If so, what are the 
consequences of this ambiguity--does it cloud the DNI's authorities in 
any way?

    (U) The Intelligence Reform Act gave the DNI new authority to move 
money and people among the different agencies of the intelligence 
community, with the consent of the Office of Management and Budget and 
notification to the Congress. In practice, however, these authorities 
have rarely been used, and Committee staff members have been told that 
getting approval for a medium-sized reprogramming can often take 
several months. How long does it typically take to get a reprogramming 
through the Congress. How long does it take OMB to approve? Why does it 
take so long for these reprogrammings to happen? Which part of the 
process takes the longest?
    (U) The DNI has realigned NIP funds between Departments during the 
budget build process. To date, there has not been a pressing need to 
reprogram funds between Departments. The average timeframe to process 
and receive approval for a NIP reprogramming action is approximately 2 
months after the ODNI receives a complete reprogramming package request 
from the NIP component. This 2-month window includes: an ODNI approval 
process (approximately 7 business days), Defense Department 
consultations (7 business days), OMB approval (approximately 7 business 
days), and Congressional notification (30 days).

    Question 2: (U) Some advocates of intelligence reform argue that we 
need to bring a version of Congress' landmark ``Goldwater-Nichols'' 
reform of Defense to the Intelligence Community. . For instance, the 
ODNI might exercise ``CINC-like'' operational control through much-
enhanced Mission Managers, while the current Intelligence Agencies 
would take on ``train and equip'' responsibilities. This would put the 
DNI squarely in the driver's seat and it may be what is necessary to 
foster true unity of purpose for the Community. Have you thought about 
such an arrangement? How would you structure such reform? What lessons 
are there for the Intelligence Community in Defense's Goldwater-Nichols 
experience?

    Answer: (U) The Office of the Director of National Intelligence 
(ODNI) continues to experiment with different concepts for Mission 
Management, much like the Defense Department experimented for over a 
decade with the Unified and Specified Commands before settling on the 
current Combatant Command structure.
    (U) Currently we have three very different centers: the National 
Counterterrorism Center (NCTC); the National Counterproliferation 
Center (NCPC) and the National Counterintelligence Executive (NCIX). 
NCTC has a very broad leadership and planning mandate that transcends 
the Community (i.e., Strategic-Operational Planning). NCPC is more 
narrowly designed to provide strategic leadership to the IC's 
Counterproliferation Community. NCIX also has a very broad mandate that 
encompasses the entire U.S. Government, predates intelligence reform, 
produces the National Counterintelligence Strategy and other 
substantive products, and oversees CI priorities and policies for the 
Community. We also have three distinct country-specific mission 
managers for North Korea, Iran, and Cuba/Venezuela. These offices are 
small and focused, and provide strategic leadership, analytical and 
collection integration, focused policymaker outreach and warfighter 
support, and day to day oversight and coordination of the IC's efforts 
against their targets. They enhance analyst-collector and interagency 
collaboration across the Community, but do not exert operational 
control of those activities.
    (U) There is no need at this point in time to select one form of 
Mission Management. The Community clearly needs a mechanism to 
institutionalize the ``jointness'' that occurs on the operational end 
of our activities. Many Community leaders and some outside observers 
note the mission focus and joint spirit which exists among our 
operationally deployed elements, and how that contrasts with activities 
``within the Beltway.'' We must remember that the bulk of the almost 
20,000 analysts in the IC are located within other Departments; any 
mission management model must keep this in mind. That said, the 
Goldwater-Nichols model remains relevant to IC reform efforts.
    (U) In December 2007, the ODNI Office of Strategy Plans, and Policy 
hosted a conference entitled ``Building a Dynamic Enterprise: Lessons 
from Goldwater-Nichols.'' This conference included Intelligence 
Community leaders, DOD leaders involved with the Goldwater-Nichols 
reforms, outside experts and academics. The participants found several 
instances where the DOD experience was directly applicable, but also 
noted many cautions in the comparison.
    a. (U) Among the similarities, the conference report noted that 
``acculturation is key to developing a workforce'' and the Community 
must ``establish a single intelligence culture.'' Both DOD and the 
Community face ``tremendous resistance'' and ``transformation must be 
both top-down and bottom-up.'' We have instituted a Joint duty Program, 
modeled largely on Goldwater-Nichols. The challenge the IC faces is 
that we do not have Combatant Command equivalents where our staff can 
gain joint duty experience; although we do have ODNI centers like NCTC, 
NCPC, and NCIX, along with other mission managers, where Joint Duty 
credit is available.
    b. (U) The differences noted included the fact that the Community 
is a more complex and overlapping entity than the Defense Department 
was, it lacks a clear chain-of-command to the DNI (with the exception 
of the Central Intelligence Agency), and it has little common culture 
upon which to rely. Furthermore, the Community lacks ``an elite 
educational and training system to promote jointness.''
    (U) The common culture and joint training systems in DOD took time 
to create. In addition to the reforms and initiatives discussed above, 
the ODNI has made a good start on the culture and education systems as 
well. It is too early in the overall reform effort to declare victory 
or defeat.

    Question 3: (U) In some peoples' view, your incomplete authorities, 
especially with respect to the Intelligence Agency heads, really render 
you the ``Coordinator'' of National Intelligence--not its ``Director''. 
What additional personnel authorities do you need with respect to the 
heads of the NIP Intelligence Agencies to make them more accountable to 
you and more accountable for the results you seek?

    Answer: (U) I do not require any additional personnel authorities 
with respect to the heads of the NIP Intelligence Agencies to make them 
more accountable. As you know, section 1014 of the 1RTPA provides the 
DNI with a role in the selection of senior officers across the IC. In 
addition, I require each of the heads of the IC elements to sign a 
Personal Performance Agreement (PPA), describing specific results that 
are demonstrable and measurable, contribute to the overall National 
Intelligence Strategy (NIS), and represent a ``stretch'' for senior 
leaders. The IC element heads also are required to submit a mid-year 
review report on their PPA accomplishments made in relation to their 
performance objectives, and we meet one-on-one to discuss their 
progress. I also have asked the heads of IC elements to review and 
revise as necessary the annual performance plans for their senior 
executives and professionals to ensure that they align with the NIS. 
Finally, I believe the rewrite of Executive Order 12333, which is 
currently underway, will further clarify the relationship between the 
DNI and the heads of the NIP Intelligence Agencies in a manner that 
ensures accountability.

    Question 4: (U) The Intelligence Reform and Terrorism Prevention 
Act required that the DNI share with the Office of the Secretary of 
Defense (OSD) the ``milestone decision authority'' on NIP programs that 
are executed within DoD (This means you and the Secretary of Defense 
jointly determine how, what, and when to buy for big programs, like 
satellites). We understand that the ODNI and OSD are working out an 
agreement on how to share this critical authority. However, that seems 
to be a half measure at best, since the DM has complete budgetary 
responsibility for the NIP, but he can't control big program 
management. When are you and the SecDef going to finish your agreement 
on sharing acquisition authority? Any big issues left with it? Why 
shouldn't the DNI be the sole decisionmaker on these acquisitions--at 
least in cases where most of the funding for an acquisition is 
contained in the NIP budget (for which you are sole responsible)?

    Answer: (U) The DNI and the SecDef signed a memorandum of agreement 
(MOA) on 25 March 2008 concerning the ``Management of Acquisition 
Programs Executed at the Department of Defense Intelligence Community 
Elements''. The MOA reflects the needs of both the DNI and the SecDef 
in the conduct of these acquisitions and no issues remain. In addition 
to the definition of the interaction between the Offices of the DNI 
(ODNI) and the Department of Defense (DoD) when a major system 
acquisition (MSA) is funded in whole or majority by the National 
Intelligence Program (NIP), the MOA also provides for inclusion of the 
ODNI staff in the Defense Acquisition Board (DAB) process when an 
intelligence related MSA is funded in majority by the Military 
Intelligence Program (MIP).
    (U) While it might be more efficient if the DNI had sole milestone 
decision authority (MDA) for all NIP acquisitions rather than sharing 
it with the SecDef, the compromise that Congress arrived at recognizes 
the significant defense equities in many of these major system 
acquisitions executed in the Department of Defense that support not 
only national intelligence needs and missions but also critical 
Department of Defense needs and missions.

    Question 5: (U) We believe that one of the areas where the 
Intelligence Reform and Terrorism Protection Act did provide the DNI 
ample authorities was in the budget arena. You seem to have sufficient 
budget authorities over the National Intelligence Program (NIP), but 
your ability to help shape and influence Military Intelligence program 
(MIP) budgets is less clear. Do you agree that you have sufficient 
budget authorities for the NIP? What about for the MIP? Do you see any 
definitional problems in separating NIP and MIP that cloud your 
authorities or unnecessarily get in the way of business?

    Answer: (U) The DNI's NIP budget authorities are sufficient. The 
law provides sufficient authority to plan and program NIP resources, 
but the DNI's flexibility to manage NIP resources is limited by the 
revised reprogramming thresholds in the Classified Annex to the Fiscal 
Year (FY) 2008 Defense Appropriations Act that changes the 
reprogramming level from the Expenditure Center to the Project level. 
This limits the DNI's and Program Managers' ability to realign funds 
quickly and react to unforeseen requirements in a timely manner.
    (U) DNI budget authorities are sufficient for the MT. The ODNI 
staff works closely with the Office of the Under Secretary of Defense 
(Intelligence) (OUSD(I)) to review major system acquisitions, budgets 
and personnel. The ODNI staff also contributed to the fiscal year 2009 
Defense Intelligence Guidance, participated on Office of the Secretary 
of Defense (OSD) budget issue teams, is a member on DoD senior budget 
councils, and coordinates on the final resolution of the MIP budget In 
addition, the DNI meets regularly with the Secretary of Defense, and 
the USD(I) is a member of the DNI's Executive Committee.
    (U) There are no definitional problems between NIP and MT as long 
as there is a clear distinction of requirements.

    Question 6: (U) There appears to be a disconnect between the IC's 
appetite for big new programs and its ability to fund them--especially 
when costs ultimately soar far above original estimates, and must be 
canceled after billions of dollars have been wasted. This problem 
exists, in part, because the community does not look realistically at 
budget affordability of big programs beyond its ``Five Year Defense 
Plans (FYDPs)''--even though most of their costs are incurred beyond 
this 5 year timeframe.
    (U) A study you worked on for the ODNI just before you left Booz-
Allen placed part of the blame on a broken requirements process. 
Specifically, your own study found that the requirements process in the 
Community is not effectively linked to budget decisions and instead is 
used to justify programs that already have significant momentum. In 
other words, we ``require'' that which we cannot afford. What have you 
done to keep from funding expensive new programs now that your 
successors will later be forced to terminate? Why don't your 
acquisition and budget processes factor in realistic, long-term 
affordability--not just what you fit within your budget year or Five 
Year Plan? Do you have sufficient authorities to deal with this 
problem? What remains to be done to fix this problem?
    (U) We are taking direct action to improve the situation. DNI 
acquisition policy (ICD 105), policy guidance (ICPG 105.1), and the 
Acquisition Crosscutting Emphasis Area to the National Intelligence 
Strategy include the following tenets:

    a. (U) Do not start acquisitions you can not afford
    b. (U) Fully fund all acquisitions you undertake
    c. (U) Require appropriate levels of domain knowledge for all 
acquisition participants
    d. (U) Use only mature technology, or include and fully fund 
technology maturity before proceeding with development efforts
    e. (U) Utilize independent reviews and oversight of all 
acquisitions
    f. (U) Settle for no less than excellence in achieving cost, 
schedule and performance
    g. (U) Ensure accountability at all levels

    The implementation of these guidelines and requirements will help 
address the long-term affordability of major acquisitions.
    (U) The DNI needs authority for NIP acquisitions commensurate with 
his responsibility. Sole milestone decision authority (MDA) vested in 
the DNI for all acquisitions funded in majority by the NIP, together 
with authority to direct use of DNI acquisition policies, would greatly 
increase the speed at which the IC achieves acquisition excellence. The 
DNI has two legislative initiatives in coordination with the Office of 
Management and Budget (OMB) for consideration in the fiscal year 2009 
legislative timeframe.

    Question 7: (U) The IRTPA gave the Intelligence Community Chief 
Information Officer, currently Gen. Myerose, broad authority to set 
standards for IT and to manage IT resources. Nonetheless, the Committee 
understands that CIOs from elements of the IC do not accept his 
authority, instead citing their own authorities under the Clinger-Cohen 
Act of 1996, which they believe is undiminished by IRTPA. The Committee 
would be open to means of clarifying this situation in favor of 
strengthening your office. Do you believe we need to resolve purported 
legal ambiguities to strengthen the authority of your CIO as intended 
by IRTPA?

    Answer: (U) We believe it helpful to resolve legal ambiguities to 
clarify the authority of the Chief Information Officer (CIO) as 
intended by the Intelligence Reform and Terrorism Prevention Act 
(IRTPA) of 2004. We would be happy to meet and discuss this topic to 
determine appropriate and useful ways to clarify these authorities.

    Question 8: (U) The Committee understands that many DoD airborne 
imagery collectors use data dissemination means that are incompatible 
with existing NIP exploitation and dissemination architectures. This is 
operationally problematic but it also has fiscal drawbacks as large 
investments are required to ``back engineer'' the supporting 
infrastructure. Nonetheless, the National Geospatial-Intelligence 
Agency (NGA) has long been required by statute and by DoD directives to 
provide standards to which all imagery collection systems to be built. 
Given NGA's role why are so many imagery systems fielded that are 
incompatible with one another and with the existing supporting 
architectures? Does the Director of NGA, in his role as functional 
manager, have the authorities needed to enforce--not just recommend--
imagery standards? If so, why do these problems persist?

    Answer: (U) The NGA Director, in his role as Functional Manager for 
GEOINT, adjudicates and mandates GEOINT standards for DoD use through 
the GEOINT Standards Working Group (GWG). Prior to the stand up of the 
GWG in January 2003, the GEOINT standards baseline for imagery systems 
was not as comprehensive as needed to ensure consistent development of 
GEOINT, not just imagery, systems.
    (U) NGA established the GWG in January 2003. Through the work of 
the GWG, the requisite inventory of necessary standards that guide 
GEOINT systems development has grown to achieve critical mass and is 
being augmented as driven by both mission and industry. This standards 
baseline is codified within the DoD IT Standards Registry (DISR) and is 
being codified by the DNI in the Intelligence Community Standards 
Registry (ICSR). In addition to mandating specific standards within the 
DISR, the GWG has produced two guidance documents related to imagery 
systems development: the Distributed Common Ground System (DCGS) 
Acquisition Standards Handbook--Imagery (DASH--I), and the Sensor 
Standards Acquisition Guide (S2AG). Both documents will be included in 
the DISR as guidance documents, and will further enhance the ability of 
GEOINT systems developers to ensure consistent, interoperable 
development.
    (U) NGA has instituted the NGA Interoperability Action Team (NIAT). 
NIAT works across the NSG with airborne and imagery systems Program 
Managers to ensure early insertion of appropriate standards into 
acquisition baselines. Response to the initial NIAT efforts have been 
extremely positive, and NGA anticipates that continued interaction with 
Program Managers through the NIAT activity will result in substantial 
improvement in the interoperability of fielded systems.
    (U) As the National System for Geospatial Intelligence (NSG) 
Functional Manager, NGA is fulfilling its standards-related 
responsibilities. Regarding the end-to-end GEOINT standards adoption 
and compliance management chain, NGA's role is not exclusive. Beyond 
the NSG Functional Manager, all affected program managers, program 
executive officers (PEO's), chief information officers (CIO's), and 
milestone decision authorities (MDA's) have equally important 
responsibilities to insure that:

    a. (U) NSG-approved GEOINT standards are indeed incorporated into 
experimental, acquisition, and operational programs,
    b. (U) Transition to standards compliance is accounted for within 
programmatic total ownership cost (TOC) budget submissions and 
execution baselines, and
    c. (U) Requisite robust standards compliance testing, reporting, 
and certification is executed within programs prior to operational 
transition.
    d. (U) All of the aforementioned events must be executed with due 
diligence in order to mitigate the risk of, if not eliminate, fielding 
GEOINT systems that are incompatible with one another as well as with 
existing supporting architectures.

    (U) The NGA Director has indicated that he has all the authorities 
necessary to execute defined mission responsibilities. The D/NGA 
approach has focused on building a GEOINT community from the ground up 
and addressing those issues upon which there is an agreed upon course 
of action.
    (U) We are currently working with the DNI and USD(I) to modify our 
existing DoD directive (charter) and Intelligence Community Directive 
(ICD) and to strengthen D/NGA authorities for GEOINT activities across 
the National Intelligence Program (NIP) and Military Intelligence 
Program (MIP) and as such, provide some ``de jure'' mechanisms to 
ensure that GEOINT Program Manager guidance is complied with on 
community activities/initiatives ranging from unified geospatial 
operations to systems R&D and acquisition.
    (U) With respect to GEOINT standards, the D/NGA is executing his 
responsibilities to mandate GEOINT standards for DoD use in acquisition 
actions. It is incumbent upon all DoD entities to follow approved 
acquisition procedure and use the indicated standards where 
appropriate, or seek a waiver defining rationale for deviating from the 
standards baseline.
    (U) While progress has been significant, it will take time for the 
entire community to implement the full standards baseline. NGA will 
continue to work aggressively through the GWG and the NIAT to develop 
and propagate standards and foster standards implementation through 
early interaction with Program Managers. NGA will continue to work with 
the DNI to leverage DNI authority to move the community toward 
standards implementation through development of appropriate community 
Policy Guides.
    (U) As stated previously, NGA's role is not exclusive regarding the 
end-to-end GEOINT standards adoption and compliance management chain. 
All affected program managers, program executive officers (PEO's), 
chief information officers (CIO's), and milestone decision authorities 
(MDA's) have equally important responsibilities.

    Question 9: (U) The leadership of the National Clandestine Service 
(NCS) is dominated by CIA officers. Other HUMINT agencies, FBI, and DoD 
entities are less than fully invested in the NCS. As a result, we do 
not have unity of effort. Standards are not uniformly enforced, and 
governance among agencies is by a series of memoranda of understanding, 
tantamount to treaties between competing powers. Symptomatic of this 
problem is the apparently deadlocked negotiations over Intelligence 
Community Directive 304, which would establish the procedures, 
principles, and guidelines for the conduct of HUMINT across the 
Community. We can all agree this area needs true unity of effort. We 
don't want HUMINT officers stepping on each others' toes; at the same 
time, we want to encourage innovation and healthy competition--without 
wasting resources. Do you favor, as some do, elevating the National 
HUMINT Manager authority to the ODNI and also ensuring broader agency 
representation (beyond CIA)--perhaps by making the National HUMINT 
Manager a non-CIA officer, but one who knows the clandestine HUMINT 
business? What are your views on this problem and what is your proposed 
solution?

    (U) While progress in HUMINT transformation has been significant, 
it will take time to fully develop and implement policies, standards, 
best practices, and services of common concern. The DNI and the 
National HUMINT Manager will continue to pursue initiatives to gain 
greater efficiency, agility, flexibility and integration across the 
national HUMINT enterprise.

    Question 10: (U) During your confirmation hearing, you said that 
you believed that the authorities of the DNI needed to be ``cleaned 
up'' with regard to how the intelligence community is managed. You 
noted, on several occasions, to Members of this Committee that you 
would examine the ODNI and its role in the intelligence community and 
would return to the Committee to outline specific areas in which new or 
additional authorities were needed. The Committee even postponed a 
Committee hearing on this issue after your request for more time to 
formulate such a proposal. At that Committee hearing, you said that you 
were seeking to focus, guide and coordinate agencies by ``exercising 
[your] current authorities.'' You also noted that you were working as a 
member of the interagency process to make necessary changes to the 
executive order governing the organization of the intelligence 
community. It appears, based on this testimony and on the fact that no 
major authorities related legislation have been requested by your 
office, that you are satisfied with current authorities of the ODNI. Do 
you believe there are any remaining authority issues that need to be 
addressed with legislation? If so, what are they? Are your requests for 
additional authorities adequate to ensure that your successors have the 
necessary authorities to manage the intelligence community in the 
future when the leadership of the ODNI, CIA, and the Department of 
Defense may not have as collegial a relationship as does the current 
leadership? When will the revisions to executive order 12333 be 
completed? When will these revisions be briefed to the Committee?

    Question 11: (U) At the hearing, in response to a question from 
Senator Bayh, the DNI stated that the eight interrogation techniques 
prohibited by the Army Field Manual ``clearly are illegal and not 
appropriate for anyone, to include the CIA certainly.'' Is this 
correct? Are these techniques clearly illegal? Could any of them ever 
be appropriate for use by the CIA, under any circumstances?

</pre></body></html>
